HHS/OIG-Audit-"Medicare Cost Reporting Integrity for Cost Plan H6161,"(A-07-00-02082)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Cost Reporting Integrity for Cost Plan H6161," (A-07-00-02082)
February 22, 2002
Complete
Text of Report is available in PDF format (485 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides
the results of an Office of Inspector General (OIG), Office of Audit Services
(OAS) review titled, "Medicare Cost Reporting Integrity for Cost Plan
H6161 for the Period January 1, 1998 through December 31, 1998."  The
purpose of our review was to evaluate costs claimed for reasonableness, allowability
and allocability, and to test paid claims data for duplicate claims.  We
found the cost reporting process to be generally adequate and that the Medical
Associates Health Plans (MAHP) was detecting and adjusting most duplicate
payments.  There were, however, a small number of claims (totaling $1,006),
which were paid by both MAHP and the carriers.  We recommended that
MAHP revise the 1998 cost report to eliminate the duplicate payments and
continue to closely monitor duplicate claims.